U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




               PUBLIC

              RELEASE



        NATIONAL INSTITUTE OF
   STANDARDS AND TECHNOLOGY
         Internal Controls Over Bankcard
              Program Need Improvement
         Final Audit Report No. DEN-11787/March 2001




                Office of Audits, Denver Regional Office

March 29, 2001




MEMORANDUM FOR:	               Dr. Karen H. Brown
                               Acting Director
                               National Institute of Standards and Technology


FROM:	                         Johnnie E. Frazier

SUBJECT:	                      Internal Controls Over NIST’s
                               Bankcard Program Need Improvement
                               Final Audit Report No. DEN-11787

This is the final report on our audit of bankcard program implementation and usage by NIST
laboratories in Boulder, Colorado. The audit concludes that the bankcard program has several
weaknesses. We are making a number of recommendations aimed at improving cardholder
performance, better controlling property purchased with bankcards, and strengthening procedures
related to approving officials and bankcard payments. The executive summary is contained on
page i, and our findings and recommendations appear on pages 3 through 16, and a complete list
of our recommendations is attached as Appendix A. In a related matter on October 27, 2000,
we provided a separate management memorandum to the Department’s Chief Financial Officer
and Assistant Secretary for Administration regarding the use of the bankcard program to purchase
firearms.

NIST generally agreed with our findings and, except in two instances, has agreed to implement
our recommendations. NIST’s response is summarized in the body of the report, and we have
attached the complete response as Appendix C to the report.

Please provide your audit action plan addressing the report recommendations within 60 days, in
accordance with Department Administrative Order 213-5. The plan should be in the format
specified in Exhibit 7 of the DAO. Should you have any questions please give me a call at (202)
482-4661 or call William R. Suhre, Regional Inspector General for Audits, Denver Regional
Office, at (303) 312-7650. We appreciate the cooperation and courtesies extended by NIST
staff during our audit.

Attachments

cc:    K. David Holmes, Jr., Acting Chief Financial Officer and
        Assistant Secretary for Administration

       Marilyn S. Kahn, NIST Audit Liaison

U. S. Department of Commerce                                                                                      Final Report DEN-11787

Office of Inspector General                                                                                                    March 2001


                                                     TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


OBJECTIVES, SCOPE, AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


I. 	      NIST Needs to Improve Cardholder Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


          A. 	       Competitive procurement procedures should be improved . . . . . . . . . . . . . . . . . . . . . . . . 3

                     Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .3

                     NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

                     OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          B. 	       Required purchase order log should be used . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                     Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                     NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                     OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

          C. 	       Purchases of prohibited items should be prevented and 

                     required approval should be obtained . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

                     Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                     NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

                     OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

          D. 	       Use of bankcards by non-cardholders should be prevented . . . . . . . . . . . . . . . . . . . . . . . 5

                     Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                     NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                     OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

          E. 	       Procedures for pre-approval of purchases of 

                     significant and sensitive items should be developed . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                     Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                     NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                     OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

          F. 	       Splitting purchase transactions should be avoided . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

                     Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                     NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                     OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          G.	        Required training should be obtained . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

                     Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

U. S. Department of Commerce                                                                                   Final Report DEN-11787

Office of Inspector General                                                                                                 March 2001


                  NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                  OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


II.	     NIST Needs to Better Control Accountable Property Purchased with Bankcards . . . . . . . . . . . . 9


         A. 	     Property recording procedures should be improved . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                  Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

                  NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                  OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

         B. 	     Accountable property built with parts bought with 

                  bankcards should be recorded . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

                  Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                  NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                  OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


III. 	   NIST Needs to Improve Approving Official Procedures . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


         A. 	     Bankcard records of cardholders who terminate 

                  employment should be obtained . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

                  Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                  NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                  OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

         B. 	     Alternate approving officials should be documented . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                  Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

                  NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                  OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

         C. 	     Review of cardholder activity should be strengthened . . . . . . . . . . . . . . . . . . . . . . . . . 13

                  Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                  NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

                  OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

         D. 	     Bankcard statements should be certified before payment . . . . . . . . . . . . . . . . . . . . . . . . 14

                  Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                  NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

                  OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

         E. 	     Separation of duties over transactions should be improved . . . . . . . . . . . . . . . . . . . . . . 14

                  Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                  NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                  OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

U. S. Department of Commerce                                                                               Final Report DEN-11787

Office of Inspector General                                                                                             March 2001


IV.    Bankcard Statement Packages Should Be
       Submitted to Finance Office Before Payment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

              Recommendation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

              NIST Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

              OIG Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16


APPENDIXES

A.     Complete List of OIG Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


B.     Summary of Audit Sample . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


C.     NIST Response to Draft Audit Report
U. S. Department of Commerce                                                        Final Report DEN-11787

Office of Inspector General                                                                      March 2001


                                       EXECUTIVE SUMMARY

An Office of Inspector General audit of bankcard program implementation and usage by National
Institute of Standards and Technology laboratories in Boulder, Colorado noted no misuse of
NIST funds. However, we did identify internal controls weaknesses in the areas of (1)
cardholder performance, (2) recording of accountable property, (3) approving official
procedures, and (4) payment procedures. These weaknesses resulted in instances of
noncompliance with the Federal Acquisition Regulation (FAR), Part 13, “Simplified Acquisition
Procedures”; Commerce Acquisition Manual, Part 13, Chapter 1, as amended July 1, 1996,
“Commerce Purchase Card Procedures”; and the Department’s Personal Property
Management Manual.

Specifically, the following actions need to be taken to strengthen the bankcard program:

NIST needs to improve cardholder performance. Cardholders should be required to use
competitive procurement procedures; utilize the required purchase order log; prevent purchases of
prohibited items and obtain required approvals; prevent the use of bankcards by non-cardholders;
develop procedures for management pre-approval of purchases of significant and sensitive items;
avoid splitting purchase transactions; and obtain required training (see pages 3-9).

NIST needs to better control property purchased with bankcards. Property recording
procedures should be improved, and accountable property built with parts bought with bankcards
should be recorded (see page 9-11).

NIST needs to improve approving official procedures. Approving officials should be
required to obtain cardholders’ records upon termination of their employment; document alternate
approving officials; maintain bankcard reports to review individual cardholder accounts at least
every six months; certify of bankcard statements before payment; and improve separation of
duties when controlling transactions (see pages 11-15).

NIST bankcard payment practices contradict CAM requirements. NIST should require
the original certified and approved bankcard statement packages to be submitted to the servicing
NIST finance office before payment (see pages 15 and 16).

Our recommendations for each finding, as well as NIST’s response and our comments, can be
found throughout the report, and the complete list of recommendations is attached as
Appendix A. NIST generally agreed with the findings in the report. With the exception of
NIST’s proposed actions regarding (1) pre-approval of sensitive items and (2) paying bankcard


                                                 i
U. S. Department of Commerce                                                      Final Report DEN-11787

Office of Inspector General                                                                    March 2001


statement without sending all original documents to NIST’s Servicing Finance Office in
Gaithersburg, we concur with NIST’s proposed actions to address our recommendations. We
note that NIST’s proposed actions will require the concurrence of the Bankcard Head
Contracting Officer, a National Oceanic and Atmospheric Administration official of the Mountain
Administrative Support Center in Boulder.




                                               ii
U. S. Department of Commerce                                                      Final Report DEN-11787

Office of Inspector General                                                                    March 2001


                                        INTRODUCTION

In 1986, several federal agencies, including the Department of Commerce, conducted a pilot
project to evaluate the usage of bankcards. The pilot project was successful in identifying
opportunities for reducing administrative procurement costs. In 1989, the bankcard was made
available government-wide through a contract administered by the General Services
Administration (GSA). The objectives of the bankcard program are to (1) reduce procurement
administrative costs and improve management by expediting and simplifying small purchases and
(2) improve internal controls to eliminate the fraud and abuse present in other small purchase
methods.

Bankcard use was facilitated by the Federal Acquisition Streamlining Act of 1994 and Executive
Order 12931, which eliminated some requirements for purchases of $2,500 or less, known as
“micro-purchases,” and encouraged agencies to move the authority for making simple purchases
from procurement offices to program offices. Subsequently, a report by the General Accounting
Office found that the use of bankcards has skyrocketed, and “... using the purchase card has
helped government agencies achieve administrative savings and efficiencies, absorb some of the
impact of staffing cuts, and improve their abilities to fulfill their missions.”1

While use of the bankcard has been encouraged by the Federal Acquisition Streamlining Act,
officials must ensure that bankcard usage complies with the Federal Acquisition Regulation
(FAR) and the Commerce Acquisition Manual (CAM) requirements. The Department’s Office
of Acquisition Management, which is responsible for overseeing the management of the bankcard
program within Commerce, has delegated that authority to the Heads of Contracting Offices
(HCOs). The HCO in Boulder, Colorado, an official of the Mountain Administrative Support
Center (MASC), further delegated purchasing authority to local NIST approving officials and
individual cardholders. HCOs, approving officials, and cardholders all have responsibilities to
ensure that the bankcard program is properly administered.

                       OBJECTIVES, SCOPE AND METHODOLOGY

We conducted the audit to determine whether NIST Boulder laboratories are utilizing bankcards
in accordance with FAR, Part 13, “Simplified Acquisition Procedures”; CAM, Part 13, Chapter
1; and the Department of Commerce Personal Property Management Manual. We used the
current Commerce Acquisition Manual, dated April 5, 2000, entitled Department of Commerce


       1
           Acquisition Reform, GAO/NSIAD-96-138, August 1996.



                                                  1
U. S. Department of Commerce                                                          Final Report DEN-11787

Office of Inspector General                                                                        March 2001


Purchase Card Procedures, to evaluate ongoing procedural issues, such as pre-approval of
transactions.

We reviewed a sample of bankcard transactions of the four NIST laboratories in Boulder for
fiscal year 1998. Additionally, we reviewed applicable regulations, policies, and procedures;
examined documentation, management reports, and records; and interviewed NIST officials. We
completed our audit fieldwork and conducted an exit briefing in September 1999. After receiving
additional documentation from NIST in October 1999 based on discussions during the exit
briefing, we provided the HCO with an exit briefing in November 1999.

We reviewed administrative and accounting internal controls at NIST relating to its use of the
bankcard, including controls over the physical security and authorized use of the bankcards, and
the approval, ordering, and receipt of purchased items. We used stratified judgmental sampling
techniques for selecting transactions for review (see Appendix B). We found that NIST needs to
improve internal control practices as discussed beginning on page 3 of this report. As part of our
audit, we interviewed a sample of cardholders and approving officials and examined their
bankcard records for selected transactions.

In conducting our audit, we relied on computer-processed data and tested its accuracy by tracing
it to original source documents and by comparing it to data in other documents. Based on our
tests, we concluded that the data was sufficiently reliable for use in meeting our audit objectives.

We also evaluated NIST’s compliance with laws and regulations applicable to the use of
government bankcards. We found instances where NIST did not comply with certain
requirements of FAR, CAM, and the Department’s Personal Property Management Manual,
as detailed in the section beginning on page 3. We noted no evidence of misuse of funds.

Our audit was conducted in accordance with generally accepted government auditing standards,
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.




                                                 2

U. S. Department of Commerce                                                               Final Report DEN-11787

Office of Inspector General                                                                             March 2001


                          FINDINGS AND RECOMMENDATIONS

Our audit noted weaknesses in NIST’s implementation of the bankcard program in the areas of
cardholder performance, recording of property, approving official procedures, and payment
procedures. These weaknesses result in inadequate internal controls and instances of
noncompliance with FAR, Part 13; CAM, Part 13, Chapter 1; and the Department’s Personal
Property Management Manual.

I.      NIST Needs to Improve Cardholder Performance

NIST needs to improve cardholder performance by requiring cardholders to improve competitive
procurement procedures, utilize the required purchase order log, prevent the purchase of
prohibited items and obtain required approvals, prevent use of bankcards by non-cardholders,
improve procedures for management pre-approval of purchases of significant and sensitive items,
avoid splitting purchase transactions, and obtain required training.

A.      Competitive procurement procedures should be improved

NIST cardholders with $25,000 purchase limits did not adequately document competitive bidding
as required by CAM, Part 13, Section 8c(11), which requires cardholders to document that the
price of purchases over $2,500 is fair and reasonable. Of the 65 transactions over $2,500 that
we reviewed, 31 had no documentation to show that the price paid was reasonable, 24 did not
have a statement explaining the absence of competition, and 19 had no quotes on file. These
transactions lacking procurement documentation conflict with CAM procurement requirements to
to pay a fair and reasonable price.

Recommendation

We recommend that the NIST Acting Director require cardholders purchasing items greater than
$2,500 to document that a price is fair using quotes, previous purchases, catalogs, current price
lists, advertisements, similar items in a related industry, or value analysis. If the cardholder solicits
only one source or vendors do not provide quotes, the cardholder should provide an additional
notation justifying the absence of competition.

NIST Response

NIST concurred with the finding and agreed to provide guidance to obtain adequate
documentation supporting bankcard acquisitions in excess of $2,500.


                                                    3

U. S. Department of Commerce                                                       Final Report DEN-11787

Office of Inspector General                                                                     March 2001


OIG Comments

We concur with NIST’s planned action, subject to review and approval of the HCO.

B. 	   Required purchase order log should be used

Thirteen of 29 cardholders did not maintain the required purchase order log for bankcard
transactions. The log (provided in Attachment B of CAM, Part 13) is the cardholder’s record of
account and designed to provide financial, administrative, and shipping data for each bankcard
transaction. Without recording all bankcard transactions in the log, cardholders cannot
adequately document, control, and reconcile purchase activity with the bankcard statement, and
approving officials cannot adequately determine whether the transactions are appropriate and
properly categorized, or reconcile purchase activity with the summary report. As a result, NIST
is at risk for unauthorized and improper procurements.

Recommendation

We recommend the NIST Acting Director direct cardholders to use the log as stated in CAM to
record all transactions, provide support for transactions when necessary, and reconcile bankcard
statements.

NIST Response

NIST agreed that a purchase log is needed to document and reconcile bankcard transactions.
The Director for Administration claims NIST’s Quick Procurement System can be used in place
of the paper log required by the CAM.

OIG Comments

We concur with the Director’s planned action; however, such a deviation from CAM
requirements will require HCO approval.

C. 	   Purchases of prohibited items should be prevented and
       required approval should be obtained

Of the 125 transactions we reviewed, 11 were for purchases of prohibited items, items requiring
special approvals, or purchases beyond authorized purchase limits. Specifically, our review
revealed two instances of cardholders purchasing fuel products without required approval from


                                                4

U. S. Department of Commerce                                                          Final Report DEN-11787

Office of Inspector General                                                                        March 2001


the HCO, five instances of printing costs for scientific publications charged to the bankcards
without the required waiver from the Government Printing Office or approval from the appropriate
printing officer, three instances of cardholders exceeding their purchase limits without evidence of
approval from the HCO, and one instance of a cardholder contracting with a cleaning service, a
prohibited transaction.

The following criteria are pertinent to our findings. CAM, Part 13, Section 7.a.(2), requires
HCO approval of any changes of the cardholder’s purchase limits; CAM, Part 13, Section 10,
prohibits cardholders from purchasing certain items; and CAM, Part 13, Section 11, requires
special authorization and/or approval from the HCO, other departmental offices, or outside
agencies before the purchase of certain items.

Recommendation

We recommend that the NIST Acting Director direct NIST cardholders not to purchase
prohibited items and to obtain special authorization or approval to purchase specific items when
required by CAM.

NIST Response

NIST generally agreed with this finding, except for the reprinting of NIST publications in non-
NIST publications, which is allowed by the NIST Administrative Manual. NIST has agreed to
request that the HCO (1) notify NIST bankcard holders of prohibited transactions and
transactions requiring pre-approval, and (2) regularly audit bankcard transactions for such
transactions.

OIG Comments

We concur with the planned action, subject to review and approval by the HCO.

D.      Use of bankcards by non-cardholders should be prevented

Two of 29 cardholders interviewed stated that they allowed unauthorized personnel to process
transactions on the bankcard because of the individual’s expertise or to save time. One
cardholder stated that non-cardholders were allowed to process bankcard transactions to
purchase training classes since they had knowledge of the institution, course requirement, cost,
etc. However, CAM, Part 13, Section 8.c.(1), prohibits the use of the bankcard by any person
other than the cardholder.


                                                 5

U. S. Department of Commerce                                                            Final Report DEN-11787

Office of Inspector General                                                                          March 2001


Recommendation

We recommend that the NIST Acting Director direct cardholders not to allow non-cardholders to
use or process bankcard transactions.

NIST Response

NIST concurred with this finding and agreed to request the MASC HCO to provide cardholders
with notification, training, and information to prevent the use of bankcards by non-cardholders.

OIG Comments

We concur with the planned action, subject to review and approval by the HCO.

E. 	    Procedures for pre-approval of purchases of
        significant and sensitive items should be improved

To improve management controls over bankcard purchases of significant and sensitive items,
NIST needs to develop consistent procedures for pre-approval of such transactions. Our
interviews of 29 cardholders found that procedures to obtain preapproval employed by
cardholders ranged from no pre-approval of any transaction to pre-approval of every transaction.
Significant purchases include purchases of personal property over $2,500 and purchases of
sensitive items (which, according to the Department’s Personal Property Management Manual,
include personal property that can be converted to personal use and therefore be subjected to
potential theft) under $2,500. Current procedures in the latest version of CAM, dated April 5,
2000, neither require NIST to obtain management pre-approval of these types of bankcard
transactions nor preclude NIST from adding its own pre-approval requirements. Because NIST
is in the process of revising its Administrative Manual, we believe that this is an opportune time for
NIST to address the pre-approval issue.

Recommendation

We recommend that the NIST Acting Director develop procedures for management pre-approval
of transactions for individual purchases over $2,500 or for purchases that result in the acquisition
of sensitive items.




                                                  6

U. S. Department of Commerce                                                        Final Report DEN-11787

Office of Inspector General                                                                      March 2001


NIST Response

NIST noted that pre-approval is not a requirement of CAM, but agreed that internal control over
bankcard transactions would be improved by developing pre-approval for purchases of personal
property over $2,500 and sensitive items under $5,000. The procedure will be provided to the
MASC HCO for notification to cardholders and approving officials. Also, NIST will review the
feasibility of including the approval on the Quick Procurement System.

OIG Comments

While we generally concur with the proposed action, we are concerned that the under $5,000
limit for purchase of sensitive items (such as weapons) may be too high to prevent misuse. NIST
should reconsider the potential risk for purchase and misuse of sensitive items before setting a
dollar limitation regarding pre-approval of sensitive items.

F.     Splitting purchase transactions should be avoided

The lack of NIST controls for purchasing items beyond the cardholder’s $25,000 limit resulted in
bankcard purchases being split. For example, one cardholder purchased a security radio system
from one vendor costing $26,962. The cardholder purchased the system using seven transactions
for the various radios and accessories of the system over a two-month period. The cardholder
split the purchase by dividing what should have been a single purchase into separate purchases on
multiple occasions, resulting in avoiding purchase card limitations.

Also, in April 1997, NIST planned to establish a facility entrance, exit key pad system, and photo
identification system at a total estimated cost of $36,300. NIST purchased the above equipment
from a single vendor. However, instead of purchasing the equipment with a single purchase order,
NIST, over a 10-month period, used seven cardholders and three CD-435 procurement requests
to procure the required equipment. The procurement, which finally totaled over $83,000, resulted
in the use of the bankcard program to split a large purchase into smaller transactions.

CAM, Part 13, Chapter 1, Paragraph 8.c.(4), prohibits purchases when the cardholder
intentionally divides what should be a single purchase into two or more separate purchases on one
or more occasions to avoid purchase limitations.




                                                7

U. S. Department of Commerce                                                          Final Report DEN-11787

Office of Inspector General                                                                        March 2001


Recommendation

We recommend that the NIST Acting Director direct cardholders, before making a purchase, to
determine the total cost of equipment or system to be purchased. If the total cost exceeds one
cardholder’s limit, the cardholder should notify the requestor that the bankcard system cannot be
used and that the Department’s procurement request form (CD-435) should be used for the
purchase.

NIST Response

NIST did not concur that the transactions reported in the audit report were clearly split
procurements. However, NIST indicated that it will request that the MASC HCO (1) remind
cardholders and approving officials that the total cost of equipment and systems be considered
before making bankcard transactions, and (2) during bankcard training, inform cardholders that
splitting purchase requirements to use the bankcard system in place of a traditional purchase order
is inappropriate and that they should not use the bankcard to purchase similar items from the same
vendor over a short period of time.

OIG Comments

We concur with the planned action, subject to review and approval by the HCO.

G.      Required training should be obtained

Eleven of 29 cardholders we interviewed had not viewed the required training video within the
previous 24-month period. At the time of our review, all cardholders were required to complete
training on basic purchasing concepts. CAM, Part 13 states that this training could be a standard
course or one customized to address the unique needs or characteristics of the purchasing
organization. Additionally, CAM required that all cardholders and approving officials review the
polices and procedures set forth in CAM and view a training video every 24 months. Although
the requirements in the revised CAM are slightly different, it is still important that NIST managers
ensure that cardholders receive proper training in the use of the bankcard.

Recommendation

We recommend that the NIST Acting Director require cardholders to work with the HCO to
ensure that cardholders receive appropriate training.



                                                 8

U. S. Department of Commerce                                                         Final Report DEN-11787

Office of Inspector General                                                                       March 2001


NIST Response

NIST stated that video training is currently out of date. The NIST Director for Administration will
coordinate with the MASC HCO updates to be posted on the Boulder website regarding
cardholder training and bankcard program changes.

OIG Comments

We concur with the planned action, subject to review and approval by the HCO.

II.	    NIST Needs to Better Control Accountable Property
        Purchased with Bankcards

NIST needs to better control purchases of accountable property made with bankcards by
improving property recording procedures and by recording accountable property bought or built
with parts bought with bankcards.

A.	     Property recording procedures should be improved

On at least two occasions, NIST cardholders did not provide the property book officer, who is
responsible for recording accountable property, with reports upon receipt of accountable
property, as required in CAM, Part 13, Section 16. This section states that cardholders must
forward a form CD-509, or property receipt, to their servicing property office.

For example, a cardholder who purchased firearms misclassified the purchase as supplies, and the
firearms were recorded only because the property book officer informally learned of the receipt of
weapons. In another example, a security radio system bought in fiscal year 1998 was not
recorded until the time of our review because the cardholder did not report its receipt to the
property book officer.

Recommendation

We recommend that the NIST Acting Director direct cardholders to track and verify the receipt
of accountable property purchased with bankcards and report the receipt to the property book
officer as required by CAM.




                                                 9

U. S. Department of Commerce                                                           Final Report DEN-11787

Office of Inspector General                                                                         March 2001


NIST Response

NIST agreed that the property recording procedures need to be improved, primarily through
cardholders using accurate object codes when recording bankcard transactions. The NIST
Director for Administration indicated that misclassification of bankcard purchase was the true
cause of failing to record purchased accountable property. NIST will request that the MASC
HCO (1) issue a written notice stressing the importance of cardholders using the appropriate
object codes to record transactions (which are available on the Quick Purchase System menu)
when recording bankcard transactions, (2) distribute and post on the MASC bankcard web site,
a detailed list of frequently purchased accountable and sensitive items (to be prepared by NIST-
Headquarters) to all cardholders and approving officials, and (3) provide training on appropriate
classification of accountable property and sensitive item purchases to cardholders and approving
officials.

OIG Comments

We concur with the planned action, subject to review and approval by the HCO.

B.	     Accountable property built with parts
        bought with bankcards should be recorded

NIST employees built accountable assets with parts purchased with the bankcard, but these
assets were not recorded on the property books. For example, one cardholder told us that the
frequency measurement and analysis systems that NIST leases to specialized users are not
recorded as accountable property because the system parts purchased with the bankcard did not
meet the criteria for accountable property. However, because the completed system is valued at
approximately $6,000, it needs to be recorded as accountable property on NIST’s property
books.

In another example, a NIST employee built lasers with parts purchased with bankcards, funded
under contract with another agency, to produce a scientific report for public use. The cardholder
told us that the agency, that funded the construction did not require that the assets be transferred
to it upon completion of the project. As a result, NIST retained title to the lasers. However, the
lasers have not been recorded on NIST’s property books since there is no established
requirement for the cardholder to report the purchased components to the property book officer.




                                                 10

U. S. Department of Commerce                                                           Final Report DEN-11787

Office of Inspector General                                                                         March 2001


Recommendation

We recommend that the NIST Acting Director direct NIST units constructing accountable
property with “non-accountable” components, either for NIST or under NIST agreements, report
the completed property to the property book officer.

NIST Response

NIST stated that when accountable property is built with non-accountable components, a NIST­
409 form entitled “Notice of Completed Manufactured Equipment” is supposed to be used to
notify the Financial Policy Division when the accountable equipment is completed. NIST will
request that the MASC HCO notify NIST Boulder bankcard officials that equipment constructed
from non-accountable components (however acquired) must be tagged, with a NIST-409 form
provided to the NIST Financial Policy Division to record accountable property.

OIG Comments

We concur with the planned action, subject to review and approval by the HCO.

III. 	   NIST Needs to Improve Approving Official Procedures

NIST needs to improve its procedures by having approving officials obtain cardholder records
upon termination of employment, documenting alternate approving officials, requiring approving
officials to maintain bankcard reports to review individual cardholders’ accounts at least every six
months, requiring certification of bankcard statements before payment, and improving separation
of duties over transactions.

A. 	     Bankcard records of cardholders who terminate
         employment should be obtained

Two approving officials did not properly close cardholder accounts when cardholders terminated
their employment with NIST. Specifically, the approving official required the terminating
employees to turn in their cards, but did not collect all of their files. CAM, Part 13, Section
8.b.(8), states that the approving official must ensure that accounts are properly closed, especially
when cardholders leave the Department, and CAM, Part 13, Section 19, requires that all
bankcard records be retained for 24 months after the end of the fiscal year in which the
transaction occurred. This includes accounts for cardholders who resign, retire, or are terminated.



                                                 11

U. S. Department of Commerce                                                            Final Report DEN-11787

Office of Inspector General                                                                          March 2001


In addition, approving officials must coordinate finalizing these accounts with the servicing finance
office.

Recommendation

We recommend that the NIST Acting Director require approving officials to review and collect
terminating cardholders’ files step during the employees’ out-processing.

NIST Response

While noting the small occurrence of improperly terminated accounts, NIST agreed that
approving officials must review terminating cardholders’ files during out-processing. The NIST
Director for Administration has agreed to develop an internal clearance checklist for departing
bankcard holders. NIST will request that the HCO provide written notification to NIST Boulder
approving officials to properly close accounts of departing employees.

OIG Comments

We concur with the planned action, subject to review and approval by the HCO.

B.      Alternate approving officials should be documented

Our review found 25 bankcard statements using alternate approving officials that did not have the
required documentation attached designating the alternate approving official. CAM, Part 13,
Section 8.b.(11), requires approving officials to appoint an alternate approving official to act in
their absence, and to notify the finance office by attaching a memorandum to the statement of
account. Without this documentation, the finance office cannot verify that all purchases have been
approved by an authorized official.

Recommendation

We recommend that the NIST Acting Director require approving officials to arrange for the
appointment of alternate approving officials and notify the finance and accounting office when
alternate approving officials are used.




                                                 12

U. S. Department of Commerce                                                          Final Report DEN-11787

Office of Inspector General                                                                        March 2001


NIST Response

NIST agreed that approving officials must notify the Finance Operations Division whenever there
is need for an alternate approving official. NIST will request that the HCO inform NIST Boulder
approving officials of the need to provide written notification to the Finance Operations Division of
alternates and attach the authorization to the statement of account.

OIG Comments

We concur with the planned action, subject to review and approval by the HCO.

C.      Review of cardholder activity should be strengthened

Approving officials need to increase their reviews of cardholders’ accounts to ensure they are
adequately maintained on a long-term basis. Five of six approving officials interviewed were
reviewing individual bankcard “Statements of Account” for authorized purchases, as required by
CAM, Part 13, Section 8.b.(6), but were not reviewing the cardholders’ accounts on an ongoing
basis to ensure proper maintenance of bankcard transactions, resulting in increased risk of
potential unauthorized and improper transactions, such as split transactions. CAM, Part 13,
Section 8.b.(7), requires the approving official to review the printout of cardholders every six
months, or as often as necessary, to identify accounts requiring maintenance.

Recommendation

We recommend that the NIST Acting Director require approving officials to review individual
cardholders’ accounts to disclose any long-term pattern of inappropriate transactions.

NIST Response

NIST agreed that bankcard holder’s accounts need to be monitored on an ongoing basis. The
Director for Administration has requested that this function be delegated to the MASC Purchase
Card Assistant (a subordinate of the HCO).

OIG Comments

We concur with the planned action, subject to review and approval by the HCO.




                                                 13

U. S. Department of Commerce                                                           Final Report DEN-11787

Office of Inspector General                                                                         March 2001


D.      Bankcard statements should be certified before payment

Our review revealed that two bankcard statements were not certified (signed) by the approving
official or alternate approving official, and one statement was certified by a person other than the
authorized cardholder designated on the statement. CAM Part 13, Sections 17.b.(7) and
17.c.(3), require both the cardholder and the approving official to certify the bankcard statement
before submitting it to the servicing finance office for payment. Only the designated cardholder
can be held responsible for the transactions on the bankcard statement because CAM does not
allow for unauthorized personnel to certify the bankcard statement, and it makes no provisions for
alternate cardholders.

Recommendation

We recommend that the NIST Acting Director require approving officials to certify all bank
statements after review and require the authorized cardholders to certify the statements.

NIST Response

NIST agreed that bankcard statements need to be certified by bankcard holders unless the
approving official certifies and attaches a statement of the reason for the absence of the
cardholder signature. NIST will request that the HCO provide a written reminder to NIST
Boulder approving officials of the necessity of proper certification of bankcard statements.

OIG Comments

We concur with the planned action, subject to review and approval by the HCO.

E.      Separation of duties over transactions should be improved

Our review of 125 sampled transactions revealed that on at least two occasions, one NIST
official was the requestor and approving official for transactions made by a cardholder while also
being the cardholder’s first line supervisor. Consequently, the responsibilities to determine that a
good or service was needed, that sufficient funds were available, and that all procurement
requirements were adequate were controlled by a single official, which is a weakness in internal
controls over the bankcard process.




                                                 14

U. S. Department of Commerce                                                            Final Report DEN-11787

Office of Inspector General                                                                          March 2001


Recommendation

We recommend that the NIST Acting Director require approving officials to ensure adequate
separation of duties for entire purchase transactions.

NIST Response

NIST agreed that a very small number of transactions needed better separation of duties. NIST
agreed to develop guidance regarding this type of situation and provide alternate solutions when
the requestor is the approving official and the first line supervisor of the cardholder. This guidance
will be distributed by the MASC HCO.

OIG Comments

We concur with the planned action, subject to review and approval by the HCO.

IV. 	   Bankcard Statement Packages Should Be
        Submitted to Finance Office Before Payment

Our review of the approving officials’ reconciliation of cardholder accounts revealed that the
officials do not send the approved bankcard statement package to the servicing finance office as
required by CAM. The approving officials are only providing copies of the bankcard statement
attached to the Quick Payment System report to the payment office for payment. As a result, the
servicing finance office does not have all required documents to approve disbursement.

CAM, Part 13, Section 17.c.(6), requires the approving official to send the original, certified, and
approved statement package to the servicing finance office. It also states that for additional
guidance, cardholders should see Appendix A of the DOC Cash Management Policies and
Procedures Handbook. Appendix A, Section 3, Paragraph .02, requires approving officials to
forward all cardholder statements, associated receipts, and any copies of “Statements of
Questioned Items” or acquisition logs to the payment office. When approving officials maintain
the original documents, more potential exists for manipulation of transactions.

Recommendation

We recommend that the NIST Acting Director direct approving officials to send original certified
and approved bankcard statement packages to the NIST finance office that makes the
disbursements.


                                                 15

U. S. Department of Commerce                                                      Final Report DEN-11787

Office of Inspector General                                                                    March 2001


NIST Response

NIST agreed that the monthly statement, the QPS log sheet, and applicable dispute forms should
be submitted, but stated that in 1997 the NIST Office of Comptroller discontinued the
requirement that copies of receipts be furnished with monthly statements. NIST stated that the
cardholder is responsible for safeguarding vendor receipts.

OIG Comments

We concur with NIST’s response except for the guidance on how receipts are handled. We
believe that NIST guidance is inconsistent with the CAMS guidance, noted above. In addition,
failure to provide the CAM-required documents weakens internal controls over bankcard
transactions and payments.




                                              16

U. S. Department of Commerce                                                           Final Report DEN-11787

Office of Inspector General                                                                         March 2001


                                                                                    APPENDIX A

                          Complete List of OIG Recommendations

We recommend that the NIST Acting Director take the following actions:

1.	    Require cardholders purchasing items greater than $2,500 to document that a price is fair
       using quotes, previous purchases, catalogs, current price lists, advertisements, similar
       items in a related industry, or value analysis. If the cardholder solicits only one source or
       vendors do not provide quotes, the cardholder should provide an additional notation
       justifying the absence of competition.

2.	    Direct cardholders to use the log as stated in CAM to record all transactions, provide
       support for transactions when necessary, and reconcile bankcard statements.

3.	    Direct NIST cardholders not to purchase prohibited items and to obtain special
       authorization or approval to purchase specific items when required by CAM.

4.	    Direct cardholders not to allow non-cardholders to use or process bankcard transactions.

5.	    Develop procedures for management pre-approval of transactions for individual
       purchases over $2,500 or for purchases that result in the acquisition of sensitive items.

6.	    Direct cardholders, before making a purchase, to determine the total cost of equipment or
       system to be purchased. If the total cost exceeds one cardholder’s limit, the cardholder
       should notify the requestor that the bankcard system cannot be used and that the
       Department’s procurement request form (CD-435) should be used for the purchase.

7.	    Require cardholders to work with the HCO to ensure that cardholders receive
       appropriate training.

8.	    Direct cardholders to track and verify the receipt of accountable property purchased with
       bankcards and report the receipt to the property book officer as required by CAM.

9.	    Direct NIST units constructing accountable property with “non-accountable”
       components, either for NIST or under NIST agreements, report the completed property
       to the property book officer.



                                                17

U. S. Department of Commerce                                                          Final Report DEN-11787

Office of Inspector General                                                                        March 2001


                                                                                    APPENDIX A

                      Complete List of Recommendations (continued)

10.	   Require approving officials to review and collect terminating cardholders’ files step during
       the employees’ out-processing.

11.	   Require approving officials to arrange for the appointment of alternate approving officials
       and notify the finance and accounting office when alternate approving officials are used.

12.	   Require approving officials to review individual cardholders’ accounts to disclose any
       long-term pattern of inappropriate transactions.

13.	   Require approving officials to certify all bank statements after review and require the
       authorized cardholders to certify the statements.

14.	   Require approving officials to ensure adequate separation of duties for entire purchase
       transactions.

15.	   Direct approving officials to send original certified and approved bankcard statement
       packages to the NIST finance office that makes the disbursements.




                                                18

U. S. Department of Commerce                                                            Final Report DEN-11787
Office of Inspector General                                                                          March 2001

                                                                                      APPENDIX B


                         National Institute of Standards and Technology
                                Bankcard Transaction FY 1998

                                     Summary of Audit Sample


                                                    Amount of Transactions
        Transactions          Over        $2,501 to      $1,500 to         Under
                                                                                            Total
                            $5,000 (a)    $5,000 (b)     $2,500 (c)      $1,500 (d)

 Total Number                   34            62             302           5,888           6,286

 Number Reviewed                34            31             30              30             125

 Percent Reviewed             100%           50%           9.93%            .51%           1.99%

 Total Amount               $300,170      $213,745        $598,795      $1,182,466      $2,295,176
 Amount Reviewed            $300,170      $106,375        $59,097          $4,504        $470,146

 Percent Reviewed             100%         49.77%          9.87%            .38%          20.48%

Notes:

(a) 	     All of the transactions were selected for review. All cardholders in this category were
          selected for interviews, and all accountable property was physically verified.

(b) 	     One of every two transactions were selected for review. All cardholders responsible for
          the transactions in this category were selected for interviews, and all accountable property
          purchased by an interviewed cardholder was physically verified.

(c) 	     One in every 10 transactions were selected for review. All cardholders responsible for
          the transactions in this category were selected for interviews, and all accountable property
          purchased by an interviewed cardholder was physically verified.

(d) 	     One in every 196 transactions were selected for review. All cardholders responsible for
          the transactions in this category were selected for interviews, and all accountable property
          purchased by an interviewed cardholder was physically verified.

                                                   19

